IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 19-1189
BP P.L.C., ET AL., PETITIONERS
v.
MAYOR AND CITY COUNCIL OF BALTIMORE
_______________

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
_______________

MOTION OF THE UNITED STATES FOR LEAVE TO
PARTICIPATE IN ORAL ARGUMENT AS AMICUS CURIAE
AND FOR DIVIDED ARGUMENT
_______________

Pursuant to Rules 28.4 and 28.7 of the Rules of this Court,
the Acting Solicitor General, on behalf of the United States,
respectfully moves for leave to participate in oral argument in
this case as amicus curiae supporting petitioners and requests
that the United States be allowed ten minutes of argument time.
Petitioners have agreed to cede ten minutes of their argument time
to the United States and therefore consent to this motion.
This case concerns 28 U.S.C. 1447(d), which provides that “an
order remanding a case to the State court from which it was removed
pursuant to section 1442 or 1443 of this title shall be reviewable
by appeal or otherwise.” The question presented is whether Section
1447(d) permits a court of appeals to review any issue encompassed

2
in a remand order when the removing defendant premised removal in
part on the federal-officer removal statute, 28 U.S.C. 1442, or
the civil-rights removal statute, 28 U.S.C. 1443.
appeals held

that

it

could

review

only

the

The court of

district

court’s

conclusion that removal was improper under the federal-officer
removal statute.

The United States has filed a brief as amicus

curiae in support of petitioners, contending that when a remand
order is reviewable under Section 1447(d), the court of appeals
may address any of the grounds of removal rejected in the course
of issuing the remand order.
The United States has a substantial interest in the resolution
of the question presented.

The United States and its officers are

frequent litigants, and it therefore has a significant interest in
the proper application of statutory provisions governing federal
appellate jurisdiction, including Section 1447(d)’s exception for
orders remanding cases removed pursuant to the federal-officer or
civil-rights

removal

statutes.

This

Office

has

previously

presented oral argument on behalf of federal parties or on behalf
of the United States as amicus curiae in other cases involving
Section 1447(d) or other statutory provisions governing the scope
of appellate review of particular categories of district court
orders.

See, e.g., Powerex Corp. v. Reliant Energy Servs., Inc.,

551 U.S. 224 (2007); Osborn v. Haley, 549 U.S. 225 (2007); Yamaha
Motor Corp., U.S.A. v. Calhoun, 516 U.S. 199 (1996).

The United

3
States’ participation in oral argument in this case is therefore
likely to be of material assistance to the Court.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
DECEMBER 2020

